Department of Homeland Security
   Ofﬁce of Inspector General

            Annual Report to Congress on States'
              and Urban Areas' Management of
             Homeland Security Grant Programs
                     Fiscal Year 2009




OIG-10-31                                     December 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                  December 16, 2009


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the annual requirement to report to Congress on the results of audits
of individual states’ management of State Homeland Security Program and Urban Areas
Security Initiatives grants. It is a summary of the findings from two individual audit
reports, including recommendations to the Administrator, Federal Emergency
Management Agency for states to take corrective actions to improve their grant
management programs.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations

Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audits ................................................................................................................ 3 


     Equipment and Property .............................................................................................. 4 

     Supporting Documentation .......................................................................................... 5 

     Consistent and Effective Management Practices ......................................................... 6 

     Monitoring and Oversight Practices ............................................................................ 7 

     Measurable Program Goals and Objectives ................................................................. 7 

     Questioned Costs ......................................................................................................... 8 

     Financial Planning and Reporting ................................................................................ 9 

     Best Practices ............................................................................................................. 10



Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 12 

     Appendix B:           Audit Reports Included in this Report ............................................... 13 

     Appendix C:           Scope of State Grant Program Management Audits .......................... 14 

     Appendix D:           Report Distribution ............................................................................ 16 



Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  Public Law 110-53, Implementing Recommendations of the 9/11
                  Commission Act of 2007, requires the Department of Homeland
                  Security, Office of Inspector General, to audit individual states’
                  management of State Homeland Security Program and Urban
                  Areas Security Initiative grants, and annually submit to Congress a
                  report summarizing the results of those audits. This report
                  responds to the annual reporting requirement and summarizes
                  audits of two states completed in Fiscal Year 2009.

                  The objectives of the state audits were to determine whether each
                  state: (1) effectively and efficiently implemented the grant
                  programs; (2) achieved program goals; and (3) spent funds in
                  accordance with grant requirements. The audits included a review
                  of approximately $376 million in State Homeland Security
                  Program grants awarded to the two states during Fiscal Years 2004
                  through 2006.

                  Overall, the states did an efficient and effective job of
                  administering the grant management program requirements,
                  distributing grant funds, and ensuring that all of the available funds
                  were used. The states used reasonable methodologies to assess
                  threats, vulnerabilities, capabilities, and needs, and allocated funds
                  accordingly. The states complied with cash management and
                  status reporting requirements, and procurement methodologies
                  conformed to the states’ strategies. The states generally spent
                  funds in accordance with grant requirements and state-established
                  priorities. We also identified several effective tools and practices
                  used by these states.

                  We identified seven areas for improvement, including equipment
                  and property accountability, supporting documentation for
                  expenditures, subgrantee oversight, financial planning and
                  reporting, and $1.9 million in questioned costs. The Federal
                  Emergency Management Agency concurred with 25 of the 26
                  recommendations, and its subsequent explanation and actions have
                  resolved the remaining recommendation. Corrective actions are
                  underway to implement the recommendations.


                 Annual Report to Congress of States’ and Urban Areas’ 

            Management of Homeland Security Grant Programs Fiscal Year 2009 


                                        Page 1
Background
               Public Law 110-53, Implementing Recommendations of the 9/11
               Commission Act of 2007, requires the Department of Homeland
               Security (DHS), Office of the Inspector General (OIG), to annually
               submit to Congress a report summarizing completed audits of State
               Homeland Security Program grants and Urban Areas Security
               Initiatives grants awarded to states, territories, and the District of
               Columbia. This report summarizes our Fiscal Year (FY) 2009
               audits of the management of Homeland Security Grants awarded to
               two states as indicated in Table 1. Appendix A provides the
               purpose, scope, and methodology for this summary report. Internet
               links to the two state reports are included in Appendix B.

                                                 Table 1

                                   Audits Included In This Report
                                                                       Audited State
                                                   Homeland
                                                                     Homeland Security
                               Fiscal Years      Security Grant
                   State                                              Program Grant
                                Reviewed            Awards
                                                                         Awards
                                                     (000s)
                                                                          (000s)
                Illinois       2004 – 2006          $266,569                 $110,220

                California     2004 – 2006          $690,029                 265,368

                Total                               $956,598                 $375,588


               Because these audits were initiated before Public Law 110-53 was
               enacted, they did not include Urban Areas Security Initiative
               grants. Audits of Illinois’ and California’s Urban Areas Security
               Initiative grants, along with a sample of other states and territories,
               are currently underway.

               Homeland Security Grant Program

               The Homeland Security Grant Program provides federal funding to
               help states and local agencies enhance their capabilities to prevent,
               deter, respond to, and recover from threats or acts of terrorism.
               The program encompasses several interrelated federal grant
               programs that together fund a range of preparedness activities,
               including planning, organization, equipment purchase, training,
               and exercises, as well as management and administrative costs.
               Depending on the fiscal year, the program included some or all of
               the following: the State Homeland Security Program, the Urban

              Annual Report to Congress of States’ and Urban Areas’ 

         Management of Homeland Security Grant Programs Fiscal Year 2009 


                                     Page 2
                  Areas Security Initiative, the Law Enforcement Terrorism
                  Prevention Program, the Citizen Corps Program, the Metropolitan
                  Medical Response System Program, and the Emergency
                  Management Performance Grant Program. The following are
                  descriptions of the two programs addressed in this report:

                  �	 State Homeland Security Program provides financial
                     assistance directly to each of the states and territories to
                     prevent, respond to, and recover from acts of terrorism. The
                     program supports the implementation of the State Homeland
                     Security Strategy to address identified planning, equipment,
                     training, and exercise needs.

                  �	 Urban Areas Security Initiative provides financial assistance
                     to address the unique planning, equipment, training, and
                     exercise needs of high-risk urban areas, and to assist them in
                     building an enhanced and sustainable capacity to prevent,
                     respond to, and recover from threats or acts of terrorism.
                     Allowable costs for the urban areas are consistent with the
                     State Homeland Security Program, and funding is expended
                     based on the Urban Area Homeland Security Strategies.

                  The overall objectives of the individual state audits were to
                  determine whether the states implemented the grant programs
                  effectively and efficiently, achieved their program goals, and spent
                  funds in accordance with grant requirements. Nine researchable
                  questions established the framework for the audit and were related
                  to the State Administrative Agency’s planning, management, and
                  evaluations of grant activities. Appendix C provides additional
                  details on the purpose, scope, and methodology of the state audits,
                  including the nine researchable questions.


Results of Audit
          Overall, our audits showed that the states did an efficient and effective job
          of managing grant programs requirements, distributing grant funds, and
          ensuring that all of the available funds were used. The states used
          reasonable methodologies to assess threats, vulnerabilities, capabilities,
          and needs. The states complied with cash management and status
          reporting requirements, and procurement methodologies were in
          conformance with the states’ strategies. The states generally spent the
          grant funds in accordance with grant requirements and state-established
          priorities, and appropriately allocated funding based on threats,
          vulnerabilities, capabilities, and priorities.

                 Annual Report to Congress of States’ and Urban Areas’ 

            Management of Homeland Security Grant Programs Fiscal Year 2009 


                                        Page 3
     However, the audit reports also identified seven areas warranting
     improvements. We made 26 recommendations to the Administrator,
     Federal Emergency Management Agency (FEMA) that, if implemented,
     should strengthen program management, performance, and oversight.
     FEMA concurred with 25 of the 26 of the recommendations, and its
     subsequent explanation and actions have resolved the remaining
     recommendation. FEMA is taking corrective actions to implement the
     recommendations, categorized in Table 2.

     The recommendations will remain open pending completion of corrective
     actions by FEMA.

                                            Table 2

                           Status of Audit Recommendations
                                                        Agency
                                       Number                             Status:
       Areas for Improvement                          Concurrence
                                        Issued                         Open Closed
                                                      Yes     No
     Equipment and Property                  4          4        0          4   0

     Supporting Documentation                2          2        0          2   0
     Consistent and Effective
                                            2           2        0         2    0
     Management Practices
     Monitoring and Oversight
                                            2           2        0         2    0
     Practices
     Measurable Program Goals
                                            3           3        0         3    0
     and Objectives
     Questioned Costs                        7          6        1*         7   0
     Financial Planning and
                                            6           6        0         6    0
     Reporting
     Total                                  26         25        1         26   0
     * 	 Although FEMA did not concur with the recommendation, its subsequent
         explanation and actions have resolved this recommendation.


Equipment and Property
     Our audit reports identified equipment and property weaknesses in both
     states and included four recommendations for improvements in this area.
     The states are in the process of taking actions to implement the
     recommendations and improve their processes.



            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 4
     �	 The State of Illinois’ Mutual Aid Box Alarm System did not have a
        central inventory system to control and account for millions of dollars
        in equipment and other personal property procured with Homeland
        Security Grant Funds. The State Administration Agency plans to
        review a current successful system already in use by another state
        agency as a model for its system.

     �	 Illinois major subgrantees have not automated the task of identifying
        and tracking items that need to be removed from inventory because of
        limited shelf-life. The effectiveness and efficiency of efforts to track
        and replace property with expiring useful lives can be improved by
        revising the central inventory systems to include expiration date
        tracking and advance notifications of needed item replacement.

     �	 California subgrantee grant managers and county procurement
        authorities were not familiar with and did not always comply with
        federal requirements in procuring equipment. Specifically, large
        equipment procurements were identified that failed to meet federal
        competitive procurement requirements, resulting in two
        recommendations for improvement. State officials said that while
        efforts had been made to educate the subgrantees on the federal
        procurement requirements, the training had apparently not been
        successful.

     FEMA concurred with all four recommendations regarding equipment and
     property. The states have taken or are taking the necessary steps to satisfy
     all report recommendations. However, the recommendations will remain
     open until FEMA confirms or verifies the progress made by the states for
     each recommendation.


Supporting Documentation
     Our reports identified instances where existing internal controls over grant
     expenditures did not provide assurance that reimbursements to subgrantees
     were eligible, allowable, and supportable in accordance with federal
     requirements. Also, timely review of supporting documentation would
     provide better oversight of subgrantees at the state level.

     �	 State of Illinois documentation to support reimbursement requests did
        not always include evidence of delivery and unique property
        identification numbers. The State relied on subgrantees to maintain
        the supporting documents, and therefore had no proof that the
        procured items had been received or appropriately identified for
        inventory control purposes. FEMA has requested that the State

            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 5
         Administration Agency require that documentation and a unique
         identification number be included with reimbursement requests.

     �	 California’s State Administrative Agency did not review supporting
        documentation for grant expenditures before reimbursing subgrantees,
        nor did the State’s internal control procedures require subgrantees to
        submit supporting documentation along with the reimbursement
        requests. As a result, the State had no assurance that subgrantee
        requests for grant funds were valid, eligible, and appropriately
        supported. State officials relied on subgrantees’ self-certifications and
        the State’s Monitoring Unit’s infrequent periodic visits for assurance
        that grant funds were properly expended.

     FEMA concurred with both recommendations regarding supporting
     documentation. The states have taken or are taking the necessary steps to
     satisfy both report recommendations. However, the recommendations will
     remain open until FEMA confirms or verifies the progress made by the
     states for each recommendation.


Consistent and Effective Management Practices
     We indentified and reported a lack of consistent and effective management
     practices in Illinois, resulting in two recommendations for improvement.
     Fully implementing these management practices would help ensure
     response team readiness.

     �	 Illinois’ three major subgrantees, the Mutual Aid Box Alarm System,
        the Illinois Law Enforcement Alarm System, and the Illinois State
        Police, have made aggressive efforts to ensure special response team
        readiness. Collectively, the three major subgrantees have developed
        effective management practices for ensuring that their respective teams
        are adequately equipped, trained, and exercised to readily respond to a
        terrorist attack or other disaster; however, none of the subgrantees
        were fully using all of the practices. The use of all the practices by all
        three major subgrantees will help ensure that the teams remain
        adequately equipped, trained, and capable.

     �	 Illinois subgrantees were making commendable efforts to ensure that
        their response teams were adequately equipped, trained, and validated;
        however, the issue of team readiness was not included in the State’s
        monitoring policy statement, nor was the subject of team readiness
        discussed at Illinois Terrorism Task Force monthly meetings.
        Capability and readiness of the special response teams is a paramount
        objective of the Illinois program, and placing emphasis on this

            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 6
         objective at the State level would ensure that the three major
         subgrantees continue to strive toward this goal.

     FEMA concurred with both recommendations regarding consistent and
     effective management practices. The state has taken or is taking the
     necessary steps to satisfy both report recommendations. However, the
     recommendations will remain open until FEMA confirms or verifies the
     progress made by the state for each recommendation.


Monitoring and Oversight Practices
     California was not monitoring its subgrantees in a timely manner. We
     made two recommendations for corrective measures. As numbers of
     unmonitored subgrants continued to grow, the state had insufficient
     assurance that program goals were being achieved or that grant funds were
     being properly expended.

     �	 California’s State Administrative Agency did not monitor subgrantee
        performance until late 2005 because the agency was not adequately
        staffed. When monitoring started, the focus of the monitoring visits
        was on closing out older grants. The frequency and scope of the
        subgrantee visits did not ensure that (1) program goals were being
        achieved, and (2) funds were being expended as intended. As such,
        the State Administrative Agency did not have sufficient oversight of
        the subgrantees’ grant management activities. At the completion of
        audit fieldwork, the Agency’s monitoring unit had yet to finish its
        work on the State’s pre-2005 grants, and had not started work on
        reviewing expenditure of the $514.6 million in FY 2005 and 2006
        grants.

     FEMA concurred with both recommendations regarding monitoring and
     oversight practices. The state has taken or is taking the necessary steps to
     satisfy both report recommendations. However, the recommendations will
     remain open until FEMA confirms or verifies the progress made by the
     state for each recommendation.


Measurable Program Goals and Objectives
     California did not have specific, measurable program goals and objectives
     linking the State’s strategy and subgrantees’ use of grant funds to acquire
     equipment, training, and exercises, resulting in three recommendations for
     improvement. Without measurable goals and objectives, the State
     (1) could not adequately evaluate the relative impacts that grant funds had

            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 7
     on first responders’ ability to respond to terrorist attacks or natural
     disasters, (2) lacked important tools for allocating grant funds and
     providing oversight to subgrantees, and (3) was unable to assess first
     responder capabilities or justify continued grants.

     �	 California’s goals and objectives did not provide an adequate basis for
        measuring preparedness improvements resulting from grant program
        funding. These goals and objectives, approved by FEMA as a part of
        the State’s preparedness strategy in FY 2004, were expanded in
        FYs 2005 and 2006. However, the objectives, especially for
        subgrantee first responders, were not specific, measurable, results-
        oriented, or time-limited as required. As a result, the State was unable
        to systematically measure improvements in subgrantee capabilities and
        State-wide preparedness. At the conclusion of our audit field work,
        the State Administrative Agency was developing performance
        measures, consistent with FEMA guidance.

     FEMA concurred with all three recommendations regarding measurable
     program goals and objectives. The state has taken or is taking the
     necessary steps to satisfy all report recommendations. However, the
     recommendations will remain open until FEMA confirms or verifies the
     progress made by the state for each recommendation.


Questioned Costs
     Our audit reports identified $1,947,921 in questioned costs in the State of
     California due to reallocation of grants funds, not following eligibility
     requirements for the use of grant funds, not properly considering all costs
     when acquiring equipment, and procuring the equipment without full and
     open competition.

     �	 The California State Administrative Agency reallocated millions in
        grant funds from one subgrantee to another without documenting this
        change in the grant files, including $1,111,966 in State Homeland
        Security Program grant funds to reimburse a State agency for
        providing security for major California airports during an extended
        terrorist alert announced by DHS. However, reimbursing state
        organizations for operational costs associated with elevated threat
        levels was not an approved use of State Homeland Security Program
        grant funds, and resulted in three report recommendations.

     �	 Equipment purchases using FY 2005 Homeland Security Grant funds
        were not eligible or were not being utilized as intended. Audio
        recorders and witness interview room equipment in the amounts of

            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 8
         $383,500 and $205,850 respectively, were purchased for the purpose
         of improving law enforcement practices, but not terrorism prevention,
         response, or disaster preparedness, as required by DHS Grant Program
         Guidelines. FEMA and the state did not concur with the finding and
         recommendation; however, subsequent explanation and actions by
         FEMA have resolved the recommendation.

     �	 A subgrantee used $96,605 in Homeland Security grant funds to buy a
        large stationary generator. However, installation was delayed for
        nearly 2 years due to necessary major renovation of the electrical
        system (estimated at $130,000) before installation of the emergency
        generator could be accomplished. This action resulted in one report
        recommendation.

     �	 A $150,000 contract to acquire a new hospital communications system
        was awarded to the firm that developed the specifications for the
        system, creating an organizational conflict of interest and undermining
        full and open competition. The procurement was conducted without
        State notification or approval, and without a cost analysis to assure that
        the sole source price was fair and reasonable. As a result, FY 2005
        grant funds were expended inappropriately, resulting in two report
        recommendations.

     FEMA concurred with six of the seven recommendations regarding
     questioned costs, and its subsequent explanation and actions have resolved
     the remaining recommendation. The state has taken or is taking the
     necessary steps to satisfy the remaining recommendations. However, the
     recommendations will remain open until FEMA confirms or verifies the
     progress made by the state for each recommendation.


Financial Planning and Reporting
     The California audit identified three areas where financial planning and
     report controls were not properly implemented, resulting in six
     recommendations to improve California’s management of its grant
     programs.

     �	 A California subgrantee’s evolving plans for a regional, interoperable
        communications system, funded in part with grant funds and initiated
        with an unauthorized noncompetitive procurement, grew beyond
        original expectations. As the system design has evolved and
        expanded, it has become clear that the system cost may exceed the
        known resources of the two counties involved. The system may now
        be too costly to complete with available resources, and currently the

            Annual Report to Congress of States’ and Urban Areas’ 

       Management of Homeland Security Grant Programs Fiscal Year 2009 


                                   Page 9
          system remains unusable. Two report recommendations addressed this
          issue.

      �	 The expenditures and unliquidated obligations reported on California’s
         Homeland Security Grant Financial Status Reports did not always
         agree with the State’s accounting system records. Most of the
         18 Financial Status Reports reviewed did not reconcile to the State’s
         accounting system. As a result, there was little assurance that the
         expenditures and unliquidated obligations reported to DHS were
         correct.

      �	 Direct and indirect costs charged to the Homeland Security grants
         were not properly documented. This occurred because the State
         Administrative Agency (1) did not require employees to prepare
         timesheets showing time spent on each of multiple grants, and (2) did
         not adopt a cost allocation plan to assign indirect costs to each grant.
         As a result, the accuracy of the management and administrative costs
         charged to the grants could not be verified, resulting in three report
         recommendations.

      FEMA concurred with all six recommendations in this area. The state has
      taken or is taking the necessary steps to satisfy all report
      recommendations. However, the recommendations will remain open until
      FEMA confirms or verifies the progress made by the state for each
      recommendation.


Best Practices
      During the course of these performance audits, several effective tools and
      practices were identified for possible use by, and sharing with, other states
      and jurisdictions. We believe the Administrator, Federal Emergency
      Management Agency, should consider evaluating the potential benefits of
      the following processes to help improve grant management and
      preparedness:

      �	 The Illinois Terrorism Task Force was the driving force for all
         planning, budgeting, funding, program execution, and evaluation of
         subgrantee activities, including those of the statewide mutual aid
         organizations. The widely diverse composition of the Task Force
         membership and its involvement (via daily interaction and monthly
         meetings) in virtually all grant program and project activities enabled
         the State to manage the programs with constant input and assistance
         from sources across the State. By using the Task Force approach, the


             Annual Report to Congress of States’ and Urban Areas’ 

        Management of Homeland Security Grant Programs Fiscal Year 2009 


                                    Page 10
   State has made significant progress in achieving statewide goals and
   objectives under the State Homeland Security Program.

�	 Illinois uses two major mutual aid organizations as subgrantees to
   organize, equip, train, exercise, and oversee special response teams.
   This approach has provided statewide focus and more efficiency and
   effectiveness than had the funds been allocated among the numerous
   counties, villages, and other local entities. The approach also has
   enabled the state to achieve interoperability among the teams in terms
   of equipment, training, and overall capabilities.

�	 The California National Guard has invented, assembled, and deployed
   a state-of-the art solution that improves communications
   interoperability by bridging disparate radio types providing high
   capacity data, voice, and video communications. This mobile
   communications interface unit is mounted in a military truck and can
   be deployed rapidly to a disaster site. This technology solution is in
   place and working, innovative, transferable, and affordable, and
   therefore could be considered by others to help improve preparedness
   and response actions in the event of a disaster.




      Annual Report to Congress of States’ and Urban Areas’ 

 Management of Homeland Security Grant Programs Fiscal Year 2009 


                             Page 11
Appendix A
Purpose, Scope, and Methodology

                   The purpose of this report, prepared in accordance with Public
                   Law 110-53, Implementing Recommendations of the 9/11
                   Commission Act of 2007, was to assess and summarize the audit
                   reports completed during FY 2009 on State Homeland Security
                   Program and Urban Areas Security Initiative grants awarded to
                   states, territories, and the District of Columbia. Specifically, we
                   were to determine (1) the number of audits conducted and
                   completed; (2) whether findings are applicable to the mandate;
                   (3) whether the funds awarded were used in accordance with the
                   law, program guidance, and State homeland security plans and
                   other applicable plans; and (4) the extent to which funds awarded
                   enhanced the ability of a grantee to prevent, prepare for, protect
                   against, and respond to natural disasters, acts of terrorism and other
                   man-made disasters.

                   The audit reports included in this annual consolidated report to
                   Congress were the result of two audits conducted by independent
                   public accounting firms under contract to the Office of Inspector
                   General. A citation and an internet link to each report are included
                   in Appendix B.

                   The individual audits summarized in this report were conducted in
                   accordance with the Government Auditing Standards as prescribed
                   by the Comptroller General of the United States. No additional
                   audit work was performed in preparing this report.




                   Annual Report to Congress of States’ and Urban Areas’ 

                    Management of Homeland Security Grant Programs 


                                          Page 12
Appendix B
Audit Reports Included in this Report


 Report                                         Report         Date      Internet Link
                                                Number        Issued

 The State of Illinois’ Management of State
 Homeland Security Grants Awarded During      OIG-09-06      10/29/08    http://www.dhs.gov/xoig/assets/
 Fiscal Years 2004 through 2006                                          mgmtrpts/OIG_09-06_Oct08.pdf


 The State of California’s Management of
 State Homeland Security Program Grants       OIG-09-33      02/20/09    http://www.dhs.gov/xoig/assets/
 Awarded During Fiscal Years 2004 through                                mgmtrpts/OIG_09-33_Feb09.pdf
 2006




                         Annual Report to Congress of States’ and Urban Areas’ 

                          Management of Homeland Security Grant Programs 


                                                Page 13

Appendix C
Scope of State Grant Program Management Audits


                  The purpose of each individual state audit was to determine
                  whether the States effectively and efficiently implemented the
                  State Homeland Security Grant Program, achieved the goals of the
                  program, and spent funds according to grant requirements. The
                  goal of the audit was to identify problems and solutions that would
                  help the States prepare for and respond to terrorist attacks. The
                  audit enabled us to answer the following researchable questions for
                  each state:

                  �	   Did the State use reasonable methodologies for assessing
                       threat, vulnerability, capability, and prioritized needs?

                  �	   Did the State appropriately allocate funding based on threats,
                       vulnerabilities, capabilities, and priorities?

                  �	   Has the State developed and implemented plans to measure
                       improvements in preparedness as a result of the grants and
                       have such measurement efforts been effective?

                  �	   Are the State’s procurement methodologies (centralized, local,
                       or combination) reasonable and in conformance with its
                       homeland security strategies?

                  �	   Does the State Administrative Agency have procedures in
                       place to monitor funds and activities at the local level to ensure
                       that grant funds are spent according to grant requirements and
                       state-established priorities? Have these monitoring procedures
                       been implemented and are they effective?

                  �	   Did the State comply with cash management requirements and
                       DHS financial and status reporting requirements for the grant
                       programs and did local jurisdictions spend grant funds
                       advanced by the State in a timely manner and, if not, what
                       caused the delays?

                  �	   Were grant funds used according to grant requirements and
                       state-established priorities?

                  �	   Was the time it took the State to get funds/equipment to first
                       responders (from the time the funds/equipment were available
                       to the State until they were disbursed/provided to the
                       jurisdiction) reasonable (auditor judgment), and if not, what
                       caused the delays?


                   Annual Report to Congress of States’ and Urban Areas’ 

                    Management of Homeland Security Grant Programs 


                                          Page 14
Appendix C
Scope of State Grant Program Management Audits

                    �   Are there best practices that can be identified and shared with
                        other states and DHS?




                   Annual Report to Congress of States’ and Urban Areas’ 

              Management of Homeland Security Grant Programs Fiscal Year 2009 


                                          Page 15 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Annual Report to Congress of States’ and Urban Areas’ 

                       Management of Homeland Security Grant Programs 


                                             Page 16

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
